The summaries of the Colorado Court of Appeals published opinions
DATE
FILED:
May 31, 2018
constitute no part of the opinion of the division but have
been
prepared
by
CASE NUMBER: 2014CA2099
the division for the convenience of the reader. The summaries may not be
cited or relied upon as they are not the official language of the division.
Any discrepancy between the language in the summary and in the opinion
should be resolved in favor of the language in the opinion.

SUMMARY
May 31, 2018
2018COA75
No. 14CA2099 &14CA2463, Landmark Towers Association Inc.
v. UMB Bank, N.A. — Government — Special Districts — Special
Assessments; Taxation — TABOR
This case concerns creation of a special district and purported
taxation of certain landowners in that district. The division holds
that including the owners’ properties in the district, solely for the
purpose of providing a sufficient revenue base to fund
infrastructure improvements that do not benefit the owners’
properties, violated the owners’ rights to due process. The division
also holds that the purported taxes imposed by the district are in
substance special assessment, not taxes. Because the owners
derive no benefit from the payment of the special assessments,
imposing those special assessments on them also violates the
owners’ rights to due process. And the division holds that the mill

levy rate imposed by the district exceeds that allowed by the
statutorily required service plan approved by the City of Greenwood
Village. But the division reverses the district court’s ruling that the
owners may recover bond proceeds misappropriated by the district’s
creator under TABOR because those bond proceeds are not
“revenue” within the meaning of the relevant TABOR provision. Nor
may the owners recover those misappropriated funds under other
provisions of the Colorado Constitution because the district is not
subject to those provisions. Ultimately, the division affirms the
judgment in part and reverses it in part, and remands the case for
further proceedings.

COLORADO COURT OF APPEALS

2018COA75

Court of Appeals Nos. 14CA2099 & 14CA2463
Arapahoe County District Court No. 11CV1076
Honorable Donald W. Marshall, Judge
Landmark Towers Association, Inc., a Colorado nonprofit corporation, by EWGGV, LLC, as receiver for 7677 East Berry Avenue Associates, LP, its declarant,
Plaintiff-Appellee and Cross-Appellant,
v.
UMB Bank, N.A.; Colorado Bondshares, a tax exempt fund; and Marin
Metropolitan District, a Colorado special district,
Defendants-Appellants and Cross-Appellees.
JUDGMENT AFFIRMED IN PART, REVERSED IN PART,
AND CASE REMANDED WITH DIRECTIONS
Division III
Opinion by JUDGE J. JONES
Webb and Bernard, JJ., concur
Announced May 31, 2018
Burg Simpson Eldredge Hersh & Jardine, P.C., Brian K. Matise, Nelson P.
Boyle, Englewood, Colorado, for Plaintiff-Appellee and Cross-Appellant
Kutak Rock LLP, Neil L. Arney, Mia K. Della Cava, Denver, Colorado;
McNamara Law Firm, P.C., John N. McNamara, Denver, Colorado, for
Defendants-Appellants and Cross-Appellees

¶1

A homeowners association, Landmark Towers Association, Inc.

(Landmark), filed suit challenging the creation of a special district
that includes condominiums owned by Landmark members. In a
nutshell, Landmark asserts that the special district can’t levy
Landmark owners’ properties to pay for bonds issued by the special
district, which funded improvements on other property, because the
election organizing the special district, approving the bonds, and
approving the levies paying for the bonds violated article X, section
20 of the Colorado Constitution (otherwise known as the Taxpayer’s
Bill of Rights (TABOR)), and the Landmark owners’ rights to due
process. Though the district court found against Landmark on the
TABOR election claim, it found for Landmark on its due process
claim, as well as on other claims, enjoined the special district from
trying to collect levies from the Landmark owners, and ordered
refunds. On appeal, we ruled, as now relevant, that Landmark
should prevail on its TABOR election claim, but didn’t address other
contentions. Landmark Towers Ass’n v. UMB Bank, N.A., 2016 COA
61 (Landmark I).
¶2

The Colorado Supreme Court remanded the case to us after

reversing our conclusion that the election giving rise to the parties’
1

dispute violated TABOR. UMB Bank, N.A. v. Landmark Towers
Ass’n, 2017 CO 107 (Landmark II). Though the supreme court had
granted certiorari review on a number of issues, it ultimately
resolved only one — whether the time bar of section 1-11-213(4),
C.R.S. 2017, precludes Landmark’s TABOR challenge to the
election.
¶3

We asked the parties to submit supplemental briefs identifying

the issues that remain for us to decide and explaining how, if at all,
the supreme court’s decision impacts those issues. Having
considered those supplemental briefs and the parties’ briefs
previously filed, we essentially affirm the district court on all
remaining issues save one. The net result is that we uphold the
district court’s rulings that the election was illegal, Landmark is
entitled to injunctive relief barring the special district from levying
against the Landmark owners’ properties, the mill levy rate of the
district’s levy exceeds that allowed by law, and the Landmark
owners are entitled to a refund of excessive assessments; but we
reverse the district court’s ruling that the Landmark owners are
entitled to a “refund” of misappropriated bond sale proceeds.

2

I.
¶4

Background

We recited the relevant facts of the case at some length in

Landmark I, but given the nature of the issues now before us, we do
so again, adding facts particularly relevant to our analysis of those
issues. We glean these facts from the district court’s extensive
findings following a trial to the court and the exhibits submitted by
the parties.
¶5

Beginning in 2005, Zachary Davidson developed two high-rise

condominium towers (the Landmark Project) via an entity he
controlled named 7677 East Barry Avenue Associates, L.P.
Davidson built the public infrastructure for the 3.5-acre Landmark
Project pursuant to a “Developer Improvement Agreement” with
Greenwood Village.
¶6

Before the Landmark Project was complete, Davidson also

decided to develop a separate residential community (the European
Village Project) on 11.4 acres of nearby land owned by Everest
Marin, L.L.P. (Everest), another entity that he controlled. But he
discovered that the revenue base for the European Village Project
wouldn’t be sufficient to pay the general obligation bonds he
intended to issue to fund construction of its necessary
3

infrastructure — streets, sidewalks, curbs and gutters, water lines,
sanitation lines, and landscaping. So he embarked on a scheme to
use owners of condominiums in the Landmark Project to pay for
those improvements, even though none of the improvements would
be on Landmark Project property and the Landmark Project’s own
infrastructure was being built pursuant to a separate financing
arrangement. To do this, he created a special district comprising
both projects, known as the Marin Metropolitan District (District).
¶7

As required by statute, Davidson applied with Greenwood

Village for approval of the District. He submitted a “Service Plan”
describing the District and explaining how the proposed
improvements would be paid for, among other things. See § 32-1202, C.R.S. 2017. But neither he nor anyone else told those who
had entered into Landmark Project purchase agreements about the
application or about the Landmark Project’s inclusion in the
District.1
¶8

The Service Plan doesn’t show any area of the Landmark

Project that would benefit from the proposed improvements: to the

At this point in time, numerous Landmark Project condominiums
were under contract, but none of them had closed.

1

4

contrary, the maps included in the Service Plan show that all
improvements are separated from the Landmark Project by existing
streets. And more, the infrastructure is internal to the European
Village Project: it provides no benefit, such as improved or
alternative traffic routes, to the surrounding community.
¶9

Not surprisingly, Greenwood Village’s planning staff criticized

the Service Plan for including the Landmark Project. At a city
council meeting in August 2007, Davidson, one of his associates,
and his attorney responded to that criticism by telling the city
council that the Landmark Project would benefit from the new
infrastructure, the Landmark Project buyers had been told of the
proposed District and the associated high tax burdens, and those
buyers favored the proposal. All of those statements were false.
Apparently based at least in part on those false assurances, the city
council approved the Service Plan.
¶ 10

Davidson’s next step was to hold an election to organize the

District, approve the bonds, and approve the “taxes” paying the
bonds. After obtaining court approval to hold the election, see § 321-301, C.R.S. 2017, in November 2007, Davidson and five of his
associates (and only those six individuals) voted in the election to
5

organize the District, approve the bonds, and approve the levies.
This “election” was planned and conducted using what could be
charitably described as dubious means. See Landmark I, ¶¶ 10, 5455, 57, 63. The six voters purported to become electors by entering
into what we previously concluded were sham purchase contracts
with Everest. Id. at ¶¶ 61-64. And the organizers didn’t give the
Landmark Project buyers any notice of the election, so none of them
voted.
¶ 11

The District later sold $30,485,000 in “Limited Tax General

Obligation Bonds” to Colorado Bondshares (Bondshares) in June
2008. The bonds call for payment of interest at an annual rate of
7.75%, and have a twenty-year maturity date (rather than the
thirty-year maturity date called for by the Service Plan). At
maturity, the bonds require a balloon payment of over $23 million.
And, as discussed below, although the Service Plan capped the debt
service levy for the bonds at 49.5 mills (absent prior approval by the
city), the District imposed a levy of 59.5 mills.2

Other terms of the bonds also materially deviate from the Service
Plan, to the detriment of District residents. The District didn’t get
city approval for those deviations.

2

6

¶ 12

UMB Bank, N.A. (UMB) held the bond sale proceeds in trust.

Davidson, purporting to act on behalf of the District, drew on those
funds, but allegedly misappropriated millions of dollars for his
personal use. See Landmark II, ¶ 15; Landmark I, ¶ 12.3 In the
end, Everest didn’t build any of the promised European Village
Project infrastructure.
¶ 13

The Landmark owners learned of the District’s creation, and of

their properties’ inclusion in the District, when they began receiving
tax bills. Their investigation disclosed that the District had been
formed and approved by means of fraud perpetrated on the city,
Landmark Project buyers, the court, and perhaps others.
Landmark then sued UMB, Bondshares, and the District
(collectively, defendants).
¶ 14

As now relevant, the district court ultimately ruled in

Landmark’s favor on a variety of claims. These claims included that
the election and resulting levying of Landmark owners’ properties
violated the owners’ constitutional rights to due process; the
District improperly disbursed bond sale proceeds for Davidson’s

3

Davidson committed suicide after he was indicted for fraud.
7

personal benefit; and the District’s mill levy on the Landmark
owners’ properties was higher than that allowed by statute or by the
Service Plan. But the court rejected Landmark’s claim that because
ineligible voters (Davidson and his five associates) had voted in the
organization, bond, and tax election, while eligible voters (the
Landmark Project buyers) hadn’t been given notice of the election,
the election violated TABOR. See Landmark I, ¶¶ 15-16. The court
ordered the District to refund the misused bond funds, ordered the
District to refund the sums collected from Landmark owners in
excess of the Service Plan’s mill levy limit, and enjoined the District
from levying on the Landmark owners’ properties.
¶ 15

Both sides appealed. We reversed the district court’s ruling

that the election hadn’t violated TABOR, without addressing
defendants’ challenges to the district court’s judgment. Id. at
¶¶ 59-70. The supreme court granted certiorari review on several
issues, but, as noted above, ultimately resolved only one: the court
held that Landmark’s TABOR challenge to the election was time
barred by section 1-11-213(4). So the court reversed our previous
decision and remanded the case to us to resolve outstanding issues.

8

¶ 16

Having considered the parties’ supplemental briefs as well as

the briefs originally filed in this court, we conclude that we need to
address the following contentions, all of which are asserted by
defendants, and none of which are impacted by the supreme court’s
decision:
1.

The district court erred in finding that including the
Landmark Project in the District violated the Landmark
owners’ rights to due process.

2.

The district court erred in weighing the equities in
imposing the injunction.

3.

The injunction violates the Uniform Tax Clause of the
Colorado Constitution.

4.

The district court erred in ruling that the District may
not levy property taxes in excess of fifty mills.

5.

The district court erred in ruling that the
misappropriation of bond sale proceeds violated TABOR
and in ordering a refund of those proceeds.

¶ 17

Addressing these contentions in this order, we reject the first

four, but agree with the fifth.

9

II.
A.
¶ 18

Discussion

Due Process Violation

The district court gave two reasons for concluding that the

Landmark owners’ rights to due process were violated by the
manner in which the District was created and the associated levies
were approved: (1) the inclusion of the Landmark Project in the
District solely to provide a sufficient revenue base to fund European
Village Project improvements was a taking of property without due
process; and (2) the levy is in substance a special assessment, not a
tax, that doesn’t provide any special benefit to the Landmark
Project.
¶ 19

Defendants argue first that the due process claim is barred by

a thirty-day statute of limitations, section 11-57-212, C.R.S. 2017.
They argue second that there was no due process violation because
the levy was a tax, and property subject to a tax needn’t receive any
benefit in return for the tax payments. Both arguments fail.
1.
¶ 20

Statute of Limitations

Section 11-57-212 provides as follows:
No legal or equitable action brought with
respect to any legislative acts or proceedings in
connection with the authorization or issuance

10

of securities by a public entity shall be
commenced more than thirty days after the
authorization of such securities.
¶ 21

In Landmark I, we held, as now relevant, that defendants

waived the affirmative defense provided by the statute by failing to
raise it at trial, and that the statute was equitably tolled by virtue of
the District organizers’ successful, intentional efforts to keep the
Landmark Project buyers in the dark about the creation of the
District and the election. Landmark I, ¶¶ 21-25, 51-55 & n.4. We
see no reason to retreat from those holdings.
¶ 22

In any event, the argument fails on the merits. The statute

applies, by its terms, to “the authorization or issuance of
securities.” § 11-57-212. Landmark, however, challenges, on
constitutional grounds, the creation of the District to include the
Landmark Project and the associated levies. We won’t expand the
reach of the statute beyond the plain meaning of its language. See
Denver Post Corp. v. Ritter, 255 P.3d 1083, 1089 (Colo. 2011) (if
statutory language is clear, we apply the statute as written);
Spahmer v. Gullette, 113 P.3d 158, 162 (Colo. 2005) (“We will not
create an addition to a statute that the plain language does not
suggest or demand.”).
11

2.
a.
¶ 23

The Merits

Taking Without Due Process: Myles Salt

This issue is controlled by a United States Supreme Court

decision, Myles Salt Co. v. Board of Commissioners of the Iberia & St.
Mary Drainage District, 239 U.S. 478 (1916). Two adjoining
parishes created a drainage district comprising land in both. To
pay for construction costs, the district levied a five-mill “ad valorem
tax” on all property in the district. Myles Salt sued, claiming that
the land in one of the parishes, including its land, wouldn’t benefit
from the district and that this land had been included in the district
solely to help fund construction benefiting land in the other parish.
Id. at 480.
¶ 24

The Supreme Court held that the formation of the district to

include Myles Salt’s land was “an act of confiscation” violating
Myles Salt’s right to due process. Id. at 485. It reasoned that,
although creation of the particular type of district at issue was
otherwise authorized by law, the reason for including certain
property — to derive revenues for a project solely benefiting other
property — was constitutionally impermissible. Id. at 483-85; see
id. at 485 (“It is to be remembered that a drainage district has the
12

special purpose of the improvement of particular property, and
when it is so formed to include property which is not and cannot be
benefited directly or indirectly, including it only that it may pay for
the benefit to other property, there is an abuse of power and an act
of confiscation.”) (emphasis added).4
¶ 25

Likewise in this case, the District’s organizers included the

Landmark Project in the District only to use it as a source of
payment for improvements to other property — specifically, the
European Village Project. And, as the district court found, with
record support, the Landmark Project receives no benefit, direct or
indirect, from those improvements. See Genrich v. City of Rice Lake,
673 N.W.2d 361, 365 (Wis. Ct. App. 2003) (question whether
improvements benefit the general public or are of merely local
benefit is one of fact); 14 Eugene McQuillin, The Law of Municipal
Corporations § 38:15, at 116, § 38:44, at 224 (3d ed., rev. vol. 2008)
(same; citing cases). Defendants don’t challenge this finding.

Defendants belittle Myles Salt by referring to it as “a 100-year-old
decision.” Be that as it may, defendants don’t argue that it is no
longer good law. And it should go without saying that we must
follow Supreme Court precedent on matters of federal constitutional
law. People v. Schaufele, 2014 CO 43, ¶ 33.

4

13

¶ 26

Defendants’ attempt to distinguish Myles Salt falls well short.

They argue that although Myles Salt said the levy at issue in that
case was an ad valorem tax, it wasn’t really such a tax but was
instead a “special assessment,” and federal and Colorado courts
alike have held that an ad valorem tax needn’t benefit particular
property to be lawfully levied against such property. See, e.g.,
Nashville, Chattanooga & St. Louis Ry. v. Walters, 294 U.S. 405,
429-30 (1935); St. Louis & Sw. Ry. Co. v. Nattin, 277 U.S. 157, 159
(1928); Bloom v. City of Fort Collins, 784 P.2d 304, 307-08 (Colo.
1989).
¶ 27

But defendants miss the point of Myles Salt. The Court’s

decision didn’t turn on the nature of the levy (tax versus special
assessment); the holding turned on the organizers’ reason for
including particular property in the district in the first place.
Because that reason was to raise revenue to fund a project solely
benefiting other property, the inclusion of the property receiving no
benefit was confiscatory — a “plain abuse of power.” 239 U.S. at
481, 484-85. Indeed, that is how courts, including the Supreme
Court itself, understand the holding in Myles Salt; they distinguish
the situation in that case from the common situation where the
14

government imposes a general purpose tax on residents or property
within an existing political subdivision or unit. See, e.g., Valley
Farms Co. of Yonkers v. Westchester County, 261 U.S. 155, 162-63
(1923) (distinguishing Myles Salt and similar Supreme Court cases
on this basis); People ex rel. Averna v. City of Palm Springs, 331 P.2d
4, 9-10 (Cal. 1958); People ex rel. Hanrahan v. Caliendo, 277 N.E.2d
319, 323-24 (Ill. 1971); S. W. Prop. Tr., Inc. v. Dallas Cty. Flood
Control Dist. No. 1, 136 S.W.3d 1, 7-8 (Tex. App. 2001) (In Myles
Salt, “the Court focused not on the lack of actual benefit to the
plaintiff’s property, but rather on the improper motives behind the
inclusion of the property in the district.”); see also DeVilbiss v.
Matanuska-Susitna Borough, 356 P.3d 290, 293, 296-99 (Alaska
2015) (addressing a challenge to a tax where there was no issue
concerning inclusion of the taxed property); Griffin v. Anne Arundel
County, 333 A.2d 612, 620-21 (Md. Ct. Spec. App. 1975)
(addressing a challenge to a general purpose property tax).
¶ 28

The facts of this case can’t be distinguished from those in

Myles Salt in any principled way. So we conclude that the
formation of the District to include the Landmark Project, and the

15

resulting levying of the Landmark owners’ properties, violated the
Landmark owners’ rights to due process.
b.
¶ 29

No Special Benefit

As the district court also concluded, even aside from Myles

Salt, Colorado law makes clear that imposing a special assessment
on property that doesn’t specially benefit from the funded
improvements violates those property owners’ rights to due process.
Reams v. City of Grand Junction, 676 P.2d 1189, 1194-95 (Colo.
1984); Ochs v. Town of Hot Sulphur Springs, 158 Colo. 456, 461-62,
407 P.2d 677, 680 (1965); City & Cty. of Denver v. Greenspoon, 140
Colo. 402, 406, 344 P.2d 679, 681 (1959), disapproved of on other
grounds by Manuel v. Fort Collins Newspapers, Inc., 631 P.2d 1114
(Colo. 1981); see also Dutoit v. Bd. of Cty. Comm’rs, 667 P.2d 879,
888 (Kan. 1983) (creation of a sewer district); 14 McQuillin, § 38:58,
at 278 (property that doesn’t specially benefit from improvements
funded by a special assessment can’t be included in the
improvement district). And the district court found that the socalled tax is, in substance, a special assessment because it doesn’t
“defray the general expenses of government” but instead funds a
private venture’s desired infrastructure. Because the Landmark
16

owners’ properties don’t receive any special benefit from the
improvements, the District’s imposition violates their rights to due
process.
¶ 30

In arguing that the levy isn’t a special assessment, defendants

rely on the fact the levy is ad valorem in form — that is, imposed on
real property according to a uniform mill rate.5 But defendants
overlook the purpose and characteristics of the levy. See City of
Littleton v. State, 855 P.2d 448, 453 (Colo. 1993) (whether a levy is a
tax, an assessment, or a fee depends on its functional
characteristics); Bloom, 784 P.2d at 307-08 (the nature of a levy is
determined according to its function and purpose); see also 14
McQuillin, § 38:1, at 30 (the characteristics of the levy, not its label,
determine whether it’s a special assessment; citing cases).
¶ 31

A true ad valorem tax is one that “provide[s] revenues in order

to defray the general expenses of government as distinguished from
the expense of a specific function or service.” Bloom, 784 P.2d at
307; see also Morton Salt Co. v. City of South Hutchinson, 177 F.2d

Defendants also seem to say that the supreme court decided in
Landmark II that the levy is a tax. It didn’t. It referred to the levy
as a tax, but it didn’t address the issue of whether it is a tax.
5

17

889, 891-92 (10th Cir. 1949) (“[T]here is a valid distinction between
a special tax or assessment to finance special improvements
designed to benefit property or persons located within a particular
taxing district, and an ad valorem tax on all the property within the
taxing jurisdiction for the general welfare of the whole
community.”); Colo. Union of Taxpayers Found. v. City of Aspen,
2018 CO 36, ¶¶ 3, 20 (defining “taxes”); Zelinger v. City & Cty. of
Denver, 724 P.2d 1356, 1358 (Colo. 1986); Ochs, 158 Colo. at 46061, 407 P.2d at 679-80; 14 McQuillin, § 38:1, at 12-13, 19-20, §
38:15, at 115. Put another way, a tax funds such public uses as
“schools, the support of the poor, . . . police and fire protection, . . .
health and sanitation, . . . waterworks and the like.” Morton Salt
Co., 177 F.2d at 892. Special assessments, in contrast, fund local
improvements that benefit particular property. Bloom, 784 P.2d at
308; Zelinger, 724 P.2d at 1358; Ochs, 158 Colo. at 460, 407 P.2d
at 679; see Colo. Union of Taxpayers Found., ¶ 24 (discussing Bloom
and Zelinger, among other cases); San Marcos Water Dist. v. San
Marcos Unified Sch. Dist., 720 P.2d 935, 939 (Cal. 1986) (ad valorem
taxes fund general expenditures such as fire and police protection,
fire stations, police stations, and public buildings, whereas special
18

assessments fund local improvements directly benefiting particular
real property, such as street improvements, street lighting,
irrigation, sewer connection, drainage, and flood control),
superseded by statute on other grounds, Cal. Gov’t Code §§ 5499954999.7 (West 2017), as recognized in City of Marina v. Bd. of Trs. of
Cal. State Univ., 138 P.3d 692 (Cal. 2011); 14 McQuillin, § 38:1, at
12-13, 19-20.
¶ 32

True, not all improvements are “local”; some are general. And

if general, imposition of a tax to pay for them is permissible, within
constitutional and statutory limits. The distinction has been
articulated as follows:
A general improvement is one that confers a
general benefit, that is, a “substantially equal
benefit and advantage” to the property of the
whole community, or benefits the public at
large. In contrast, a local improvement,
although incidentally beneficial to the public at
large, is primarily made for the
accommodation and convenience of
inhabitants in a particular locality and confers
“special benefits” to their properties.
Genrich, 673 N.W.2d at 364 (quoting Duncan Dev. Corp. v. Crestview
Sanitary Dist., 125 N.W.2d 617, 619-20 (Wis. 1964)); see Knox v.
City of Orland, 841 P.2d 144, 149-50 (Cal. 1992), superseded by

19

constitutional amendment on other grounds, Cal. Const. art. XIIIC,
§ 2, as recognized in Jacks v. City of Santa Barbara, 397 P.3d 210
(Cal. 2017); 14 McQuillin, § 38:15, at 115.
¶ 33

The levy at issue in this case funds purely local improvements

directly and specially benefiting only the European Village Project.6
It does not fund “the general expenses of government.” Bloom, 784
P.2d at 307. 7 It is therefore a special assessment, not a tax. And

The District comprises only fifteen acres. Greenwood Village
comprises 8.3 square miles, about 5,321 acres. The District thus
makes up less than 0.3 percent of the city. And as the district
court found, infrastructure for the Landmark Project was separately
financed and paid for. None of the European Village Project
infrastructure was needed for the Landmark Project. “If property is
not benefited by an improvement by reason of the existence of a like
or similar improvement from which the property derives all the
benefit of the kind necessary to its use and enjoyment, it is not
subject to assessment for the later improvement.” 14 Eugene
McQuillin, The Law of Municipal Corporations § 38:42, at 220 (3d
ed., rev. vol. 2008); see City & Cty. of Denver v. Greenspoon, 140
Colo. 402, 344 P.2d 679 (1959) (relying on this principle to declare
an assessment void).

6

Defendants also argue the levy couldn’t have been a special
assessment because, when the District was created, special
districts didn’t have statutory authority to impose special
assessments. But the fact the District wasn’t authorized to impose
special assessments doesn’t mean it didn’t do so. As discussed, the
nature of the levy is determined by its purpose and characteristics.
If the purpose and characteristics of a levy show that it’s a special
assessment, then that’s what it is. In the end, even if defendants

7

20

so the district court didn’t err in ruling on this basis, too, that the
levy violates the Landmark owners’ rights to due process.
B.
¶ 34

The Injunction

Defendants assail the district court’s injunction barring the

District from levying against the Landmark owners’ properties on
two additional fronts. First, they contend that the court erred in
balancing the equities. Second, they say the injunction violates
article X, section 3 of the Colorado Constitution, requiring uniform
taxation of property. Neither attack proves successful.
1.
¶ 35

The District Court’s Order

The district court took a belt and suspenders approach in

rejecting defendants’ opposition to an injunction barring the
assessments. Initially, it ruled that such an injunction is required
by law where property is unconstitutionally included within a
special district and levied against, and so no weighing of the
equities is required or appropriate. It then ruled that even if a
weighing of the equities is required, in a contest between the

are right about the state of the law at the time of the election, that
means only that there’s another reason for declaring the special
assessment invalid.
21

equities favoring the Landmark owners and those favoring
Bondshares (the only defendant claiming that the equities favor its
position), the Landmark owners prevail.
2.
¶ 36

Standard of Review

Defendants’ challenges to the injunction raise two issues of

law — whether the district court properly ruled that the law
requires an injunction in these circumstances, and whether the
injunction violates the Colorado Constitution’s uniform taxation
requirement. We consider such issues de novo. See Coloradans for
a Better Future v. Campaign Integrity Watchdog, 2018 CO 6, ¶ 15
(appellate court reviews questions of constitutional interpretation de
novo); In re Marriage of Cardona, 2014 CO 3, ¶ 9 (appellate court
reviews purely legal issues de novo); Evans v. Romer, 854 P.2d
1270, 1275 (Colo. 1993) (appellate court reviews de novo whether
an injunction violates a constitutional right).
¶ 37

The district court’s weighing of the equities, however, was a

matter of discretion. See Wal-Mart Stores, Inc. v. United Food &
Commercial Workers Int’l Union, 2016 COA 72, ¶ 24. We review
such a decision for an abuse of that discretion, meaning that we’ll
overturn it only if it was manifestly arbitrary, unreasonable, or
22

unfair, or based on a misapplication of the law. Id.; Stulp v.
Schuman, 2012 COA 144, ¶¶ 9, 10. At the same time, we defer to
the court’s factual findings underlying its decision if they have
record support. Stulp, ¶ 9.
3.
a.
¶ 38

The Merits

Weighing the Equities

The law is that if a taxing authority assesses property in

violation of a property owner’s right to due process, the assessment
is void and can’t be continued; to enforce the assessment would
itself violate the owner’s right to due process. E.g., Greenspoon, 140
Colo. at 405-07, 344 P.2d at 681-82; Cook v. City & Cty. of Denver,
128 Colo. 578, 265 P.2d 700 (1954); Pomroy v. Bd. of Pub.
Waterworks, 55 Colo. 476, 136 P. 78 (1913). Where, as in this
case, the law imposes a particular remedy for a particular wrong,
considerations of equity can’t be applied to deprive the injured party
of that remedy. This is what is meant by the phrase “equity follows
the law.” Armstrong v. Driscoll Constr. Co., 107 Colo. 218, 222, 110
P.2d 651, 653 (1941); Am. Nat’l Bank of Denver v. Tina Marie
Homes, Inc., 28 Colo. App. 477, 485, 476 P.2d 573, 577 (1970). The

23

district court correctly applied this maxim, and defendants scarcely
attempt to show otherwise.8
¶ 39

But, like the district court, leaving nothing to chance, we also

conclude that the district court didn’t abuse its discretion in
balancing the equities. On this score, defendants say only that if
Landmark Project property can’t be levied, Bondshares, which did
nothing wrong, will “suffer millions of dollars in losses.” Maybe, but
the flip side is undoubtedly true: if the levy is allowed, the
Landmark owners — who did nothing wrong, were actively
defrauded, and suffered violations of their rights to due process —
will, collectively, lose millions of dollars. And that isn’t all the
Landmark owners have going for them. The district court also
noted a number of other facts weighing against Bondshares:
 Bondshares, a sophisticated institutional investor with a
great deal of experience in this area, “had full
opportunity to evaluate the viability of Mr. Davidson and

Defendants’ entire argument on this point is that “the court
misapplied the law, and thus also the equities.” This assertion is so
perfunctory that we’d be justified in disregarding it altogether. S.
Colo. Orthopaedic Clinic Sports Med. & Arthritis Surgeons, P.C. v.
Weinstein, 2014 COA 171, ¶ 35.
8

24

his entities which were the moving forces behind the
Marin district.”
 Bondshares was concerned about the risks of the project
from the outset.
 If Bondshares had more carefully looked at the Service
Plan, it would’ve seen that it was “questionable” whether
the Landmark Project would receive any actual benefit.
 Bondshares should’ve seen that “virtually no controls
were in place regarding the requests for payment by
Marin and specifically that there was no process for
verification of the accuracy or validity of the claims for
payment made.”
¶ 40

Again, defendants don’t challenge any of these findings. And

to them we add the following undisputed facts:
 Defendants don’t even assert that the equities favor the
District (the entity imposing the levy), and any such
assertion would be meritless.
 Bondshares knew that Davidson was exerting pressure
to gain free use of the bond proceeds, but simply left it
up to UMB, the trustee, to deal with that pressure.
25

 Bondshares believed that the financing plan in the
Service Plan wasn’t feasible, and purchased the bonds
on terms differing substantially from those called for by
the Service Plan.
 Bondshares knew that, absent some “magical ability” to
collect the $23.8 million balloon payment at the end of
the bonds’ term, that payment wouldn’t be made and the
bonds would have to be refinanced.9
¶ 41

All of this paints a picture of a sophisticated institutional

investor with some knowledge of both the risk and the lack of
benefit to the Landmark Project, and the means and incentive to
obtain more. The Landmark owners, in contrast, were deliberately
kept in the dark about the creation of the District and blindsided by
the so-called taxes. Under these circumstances, any decision by
the district court that the equities favor Bondshares would’ve been
an abuse of discretion.

At trial, Bondshares’ representative agreed with Landmark’s
counsel’s assertion that “absent some magical ability to collect [the
balloon payment], [the District] would have no choice but to
refinance.”

9

26

b.
¶ 42

The Uniform Tax Clause

Article X, section 3 of the Colorado Constitution provides, as

relevant in this case, that “[e]ach property tax levy shall be uniform
upon all real and personal property not exempt from taxation under
this article located within the territorial limits of the authority
levying the tax.” Colo. Const. art. X, § 3(1)(a). It “requires that the
burden of taxation be uniform on the same class of property within”
the taxing authority’s jurisdiction. Denver Urban Renewal Auth. v.
Byrne, 618 P.2d 1374, 1386 (Colo. 1980).
¶ 43

Defendants argue that enjoining the District from levying on

the Landmark owners’ properties violates this requirement because
it means that only some of the property in the District — that in the
European Village Project — can be taxed.
¶ 44

The district court rejected this argument first because

defendants didn’t raise it until after the trial. But it went on to
reject it for two additional reasons: the requirement doesn’t apply to
special assessments such as that imposed by the District, and the
injunction doesn’t obligate the District to do anything with respect
to other persons or property outside the Landmark Project. The
district court ruled correctly in all three respects.
27

¶ 45

First, it’s undisputed that defendants raised this issue for the

first time in their motion for reconsideration. That was too late.
See Hice v. Lott, 223 P.3d 139, 149 (Colo. App. 2009); Bowlen v.
Fed. Deposit Ins. Corp., 815 P.2d 1013, 1015-16 (Colo. App. 1991);
see also People v. Schaufele, 2014 CO 43, ¶ 49 (Boatright, J.,
concurring) (“Motions for reconsideration are designed to correct
erroneous court rulings; they are not designed to allow parties to
present new legal arguments for the first time and then appeal their
denial . . . .”).10
¶ 46

Arguing to the contrary, defendants say that the issue didn’t

arise until after the court imposed the injunction following trial.
Not so. Landmark sought injunctive relief from the beginning of the
case, including an injunction enjoining the District from levying
against the Landmark owners’ properties. And the Landmark
owners always sought a refund of all amounts paid to the District.
If that weren’t enough to put defendants on notice that the
Landmark owners were asserting that the District couldn’t levy

This rule applies regardless of whether the uniform tax argument
is an affirmative defense. And so we don’t need to decide whether it
is.

10

28

against their properties, the Landmark owners also asserted, before
trial, that any levy against their properties was invalid because their
properties receive no benefit from the creation of the District or the
construction of the improvements. It was incumbent on defendants
to raise any defense to these claims before and during trial.
¶ 47

Second, the law is, and defendants don’t dispute, that article

X, section 3 doesn’t apply to special assessments; it applies only to
taxes. Zelinger, 724 P.2d at 1358; City of Denver v. Knowles, 17
Colo. 204, 207-11, 30 P. 1041, 1042-44 (1892). As discussed
above, the District’s levies against the Landmark owners’ properties
are special assessments, not taxes.
¶ 48

And third, the injunction doesn’t require the District to impose

taxes on anyone or on any property. If the District decides to
impose a true tax, it can exclude the Landmark Project from the
District under section 32-1-501, C.R.S. 2017.11
¶ 49

To these three reasons for rejecting defendants’ argument, as

given by the district court, we add a fourth — the violation of the
Landmark owners’ rights to due process under both the Federal and

The district court’s judgment already does this as a practical
matter.
11

29

Colorado Constitutions entitles them to the injunctive relief they
request, as a matter of law. E.g., Greenspoon, 140 Colo. at 405-07,
344 P.2d at 681-82. We don’t think that article X, section 3 can be
read to require what due process forbids.12
C.
¶ 50

The Excessive Mill Rate

The District’s bonds don’t call for the debt to be paid for by

any particular mill levy. But the District imposed a levy of 59.5
mills on all real property within the District to service the debt.
Landmark claimed that this was at least 9.5 mills more than that
allowed by section 32-1-1101(6)(b), C.R.S. 2017, and the Service
Plan.

We’ve concluded that creation of the District to include the
Landmark owners, and resulting assessments on their properties,
violated their rights to due process under the United States
Constitution. That federal constitutional violation trumps any
possible incidental violation of the state constitution. In re Title,
Ballot Title and Submission Clause for 2013-2014 #90, 2014 CO 63,
¶ 58 (state law can’t trump federal takings protections); Middleton v.
Hartman, 45 P.3d 721, 731 (Colo. 2002) (“[T]he Supremacy Clause
[of the United States Constitution] mandates that state law give way
when it conflicts with federal law.”); Mesa Verde Co. v. Montezuma
Cty. Bd. of Equalization, 898 P.2d 1, 7-8 (Colo. 1995) (the
Supremacy Clause precludes state taxation of federally owned land;
article X doesn’t apply to such land even though no such exemption
is stated therein).

12

30

¶ 51

The district court found in Landmark’s favor on this claim,

reasoning that (1) section 32-1-1101(6)(b) caps the mill levy rate for
the bonds at fifty mills and (2) the Service Plan similarly caps the
mill levy rate at fifty mills. As to the latter, the court concluded that
such a cap is contained in both section VIII.D of the Service Plan
and the “pro forma” financing plan attached thereto and
incorporated therein. As a remedy, the court ordered the District to
come up with a refund plan.
¶ 52

Defendants argue on appeal that (1) the district court failed to

read subsections (6)(a) and (6)(b) of section 32-1-1101 together, and
those provisions create an exception to the fifty-mill limit when
bonds are purchased by an institutional investor (such as
Bondshares); and (2) sections VIII.D and VIII.E of the Service Plan
essentially track section 32-1-1101(6)(a) and (b). Put a bit more
simply, defendants argue that the 59.5 mill levy comports with both
section 32-1-1101(6) and the Service Plan.
¶ 53

Defendants’ argument has some merit, but only up to a point.

Landmark agrees that the district court’s reading of section 32-11101(6) was incorrect — that is, if the institutional investor
exception of section 32-1-1101(6)(a)(IV) applies, the mill levy rate
31

may exceed fifty mills, so long as such a levy isn’t inconsistent with
the service plan. We needn’t address that particular issue, however,
because we conclude that the district court correctly found that the
Service Plan doesn’t permit a levy of 59.5 mills.
¶ 54

For their part, defendants concede, as they must, that even if

a special district’s mill levy complies with section 32-1-1101(6), it
also must comply with the applicable service plan. See § 32-1207(1), C.R.S. 2017 (a “special district shall conform so far as
practicable to the approved service plan”); Plains Metro. Dist. v. KenCaryl Ranch Metro. Dist., 250 P.3d 697, 700 (Colo. App. 2010) (the
Special District Act requires special districts to conform to their
service plans). They nonetheless argue that the mill levy complies
with sections VIII.D and VIII.E of the Service Plan. But even if
that’s so, it doesn’t get them where they want to go because the mill
levy doesn’t conform to the financing plan.13
¶ 55

Section VIII.A of the Service Plan says that the financing plan

estimates revenue for paying debt on the bonds, “including

We observe that it’s undisputed the bonds were issued as “limited
tax” bonds, not unlimited tax bonds. This would seem to indicate
that the fifty-mill-rate limit of section 32-1-1101(6)(b) and the
Service Plan were intended to apply to the bonds.

13

32

amounts available . . . from the debt service mill levy.” Though
defendants dismiss the financing plan as merely tentative and of no
import, the text of the Service Plan indicates that it was intended to
have binding effect. For example, it says that “[a]ny bond financing
plan that generally conforms with or improves the pro forma model
of the Financing Plan . . . will require no further action or approval
of the City.” This statement implies that any bond financing plan
that wouldn’t generally conform with or improve the financing plan
would require city approval.
¶ 56

The financing plan called for a debt service mill levy of no more

than 49.5 mills. The district court found that the 59.5-mill-rate
levy that the District imposed “is a substantial and significant
variance from the pro forma model materially affecting” the
Landmark owners (and anyone else required to pay it). Defendants
don’t challenge that factual finding. See M.D.C./Wood, Inc. v.
Mortimer, 866 P.2d 1380, 1384 (Colo. 1994) (appellate court reviews
trial court’s factual findings for clear error); Page v. Clark, 197 Colo.
306, 313, 592 P.2d 792, 796 (1979) (same). And it’s undisputed
that the District didn’t obtain Greenwood Village’s approval to
impose the 59.5-mill-rate levy. It necessarily follows that the
33

District violated the Service Plan, and it then follows that the 59.5mill-rate levy is illegal.14
D.
¶ 57

Misappropriation of Bond Sale Proceeds

Landmark claims that Davidson misappropriated millions of

dollars of the proceeds from the District’s sale of the bonds to
Bondshares. The Landmark owners seek “refunds” of the
misappropriated sum under TABOR, specifically clause (1). The
district court found that although Landmark had made a
“compelling showing” that Davidson had misappropriated almost $5
million of the bond sale proceeds, it had proved misappropriation of
only $384,611. The court also found that this misuse of funds
violated TABOR, and it ordered refunds.
¶ 58

Defendants argue that the bond proceeds aren’t “revenue”

within the scope of clause (1), and so the Landmark owners aren’t
entitled to refunds under that provision. We agree with defendants
on this point. And we disagree with Landmark’s alternative position
that even if refunds aren’t proper under TABOR, they are proper

Defendants take issue with the district court’s characterization of
the 59.5-mill-rate levy as a “TABOR” violation. But they don’t argue
that the court otherwise lacked authority to order a refund of
illegally collected levies.

14

34

under the “anti-donation” provisions of the Colorado Constitution,
article XI, sections 1 and 2.
¶ 59

Clause (1) of TABOR says, as relevant to the issue before us,

that “[r]evenue collected, kept, or spent illegally since four full fiscal
years before a suit is filed shall be refunded with 10% annual
simple interest from the initial conduct.” Are a special district’s
proceeds from the issuance of bonds “revenue”? Because TABOR
doesn’t define the term, we must lean on familiar principles of
constitutional interpretation to answer that question.15
¶ 60

TABOR became part of Colorado’s constitution through the

citizen initiative process. Our aim in interpreting such an
amendment is to “give effect to the electorate’s intent.” Colo. Ethics
Watch v. Senate Majority Fund, LLC, 2012 CO 12, ¶ 20 (quoting
Davidson v. Sandstrom, 83 P.3d 648, 654 (Colo. 2004)).
¶ 61

We start, of course, with the ordinary and popular meanings of

the amendment’s words. Id.; Davidson, 83 P.3d at 654; see also
City of Wheat Ridge v. Cerveny, 913 P.2d 1110, 1114 (Colo. 1996)

The interpretation of a constitutional provision presents a
question of law that we review de novo. Gessler v. Colo. Common
Cause, 2014 CO 44, ¶ 7.

15

35

(“[W]ords used in our Constitution must be given their ‘natural and
popular meaning usually understood by the people who adopted
them.’” (quoting Urbish v. Lamm, 761 P.2d 756, 760 (Colo. 1988)))
(construing TABOR). And we do this considering the amendment as
a whole, accounting for context and seeking an interpretation that
harmonizes all its provisions. See Colo. Educ. Ass’n v. Rutt, 184
P.3d 65, 80 (Colo. 2008).
¶ 62

As a general matter, TABOR imposes limits on government

spending, revenue gathering and accumulation, and indebtedness.
With respect to revenue specifically, it “limits the amount of revenue
state and local governments can retain from all (save, essentially,
federal) sources at the end of a fiscal year.” Barber v. Ritter, 196
P.3d 238, 247 (Colo. 2008); see Colo. Const. art. X, § 20(7)(d). “If
the government’s revenue exceeds this limit, the excess must be
refunded to the taxpayers, unless their approval to retain the
money is sought and obtained.” Barber, 196 P.3d at 247; see Colo.
Const. art. X, § 20(7). Clause (1) provides that citizens may sue to
enforce this limitation, as well as to obtain redress, in the form of a
refund, when the government collects, retains, or spends excess
revenue illegally.
36

¶ 63

Defendants argue, relying on Barber, that “revenue” means

only tax revenue. But Barber doesn’t say that. The TABOR issues
in that case were whether fees, surcharges, and special
assessments collected by the state became, upon transfer to the
general fund, taxes causing a “net tax revenue gain” or a “new tax”
or “tax rate increase” subject to clause (4)(a)’s requirement of voter
approval. Colo. Const. art. X, § 20(4)(a). The court held, in
essence, that clause (4)(a) applies only to taxes, and that because
fees, surcharges, and special assessments aren’t taxes, they don’t
become subject to clause (4)(a) when transferred to the general
fund. Barber, 196 P.3d at 248-52. The court didn’t construe the
term “revenue” as used elsewhere in TABOR, but instead construed
a provision of TABOR — clause (4)(a) — dealing expressly with
taxes. We don’t read Barber as saying, or implying, that only taxes
are revenue for purposes of TABOR. To the contrary, in setting the
table for addressing the issues before it, the court said that “fees
constitute ‘revenue’ under [TABOR] accounting principles from the
time they are collected.” Id. at 248.
¶ 64

But this doesn’t mean that all money received, regardless of

source or circumstances of acquisition, constitutes revenue subject
37

to clause (1). Looking at the plain and ordinary meaning of the
term, we see that, when it comes to government entities, “revenue”
means “the annual or periodical yield of taxes, excises, customs,
duties, and other sources of income that a nation, state, or
municipality collects and receives into the treasury for public use.”
Webster’s Third New International Dictionary 1942 (2002); see also
Black’s Law Dictionary 1513 (10th ed. 2014) (defining “revenue” as
“[t]he total current income of a government, however derived; esp.,
taxes”; and defining “general revenue” as “[t]he income stream from
which a state or municipality pays its obligations unless a law calls
for payment from a special fund”); see also TABOR Found. v. Reg’l
Transp. Dist., 2016 COA 102, ¶¶ 63-65 (a court may consider
dictionary definitions in ascertaining the plain and ordinary
meaning of an undefined term; using such definitions to construe
“policy” in TABOR), aff’d, 2018 CO 29.
¶ 65

The bond proceeds at issue don’t fit within that meaning.

They are borrowed funds, not income. Further, they aren’t subject
to “refund” to District property owners because they weren’t
collected from those property owners in the first place. Rather, they
were lent to the District by a private, outside entity. We therefore
38

conclude that District property owners, including the Landmark
owners, aren’t entitled to refunds of misappropriated bond proceeds
under clause (1) of TABOR.
¶ 66

We also conclude that the Landmark owners aren’t entitled to

refunds under article XI, sections 1 and 2 of the constitution.16
These sections “prohibit mingling of public funds with private
funds.” In re Interrogatories by Colo. State Senate (Senate Resolution
No. 13) Concerning House Bill No. 1247, 193 Colo. 298, 306, 566
P.2d 350, 356 (1977); accord Lord v. City & Cty. of Denver, 58 Colo.
1, 16, 143 P. 284, 288 (1914); see Lyman v. Town of Bow Mar, 188
Colo. 216, 222-23, 533 P.2d 1129, 1133 (1975) (“These sections
basically prohibit lending, pledging credit or making donations to
persons, companies or corporations by the state, counties, cities or
towns of Colorado.”). But both are limited in their application to the
state, counties, cities, townships, and school districts. Colo. Const.
art. XI, §§ 1, 2. The District is none of these; it’s a special district

Landmark made this claim in the district court, but the district
court didn’t rule on it. We may consider whether to affirm based on
this claim because Landmark preserved it and we may affirm on
any ground supported by the record. See Rush Creek Sols., Inc. v.
Ute Mountain Ute Tribe, 107 P.3d 402, 406 (Colo. App. 2004).

16

39

that by law is a quasi-municipal corporation and political
subdivision, solely responsible for its own debts. See §§ 32-1103(20), -1101, C.R.S. 2017; cf. N. Colo. Water Conservancy Dist. v.
Witwer, 108 Colo. 307, 310, 116 P.2d 200, 201 (1941) (water
conservancy district was a quasi-municipal corporation not subject
to sections 1 and 2); Milheim v. Moffat Tunnel Improvement Dist., 72
Colo. 268, 280, 211 P. 649, 654 (1922) (tunnel improvement district
wasn’t subject to article XI, section 8, which applied, before its 1969
repeal, only to cities and towns). So even assuming Davidson’s
misappropriation of bond proceeds is a kind of act otherwise
prohibited by sections 1 and 2 (a conclusion that isn’t at all clear),
those sections don’t afford relief to the Landmark owners because
they don’t apply to the District.17
¶ 67

We therefore conclude that the district court erred in ordering

refunds of the money Davidson misappropriated.

Landmark also mentions sections 3 and 4 of article XI, which
concern limitations on state debt, but hasn’t ever explained how
those provisions arguably apply to this case.

17

40

III.
¶ 68

Conclusion

We reverse that portion of the judgment ordering TABOR

refunds of the $384,611 Davidson misappropriated. We affirm the
remainder of the judgment. We remand the case to the district
court for further proceedings consistent with this opinion.
JUDGE WEBB and JUDGE BERNARD concur.

41

STATE OF COLORADO
2 East 14th Avenue
Denver, CO 80203
(720) 625-5150
PAULINE BROCK
CLERK OF THE COURT

NOTICE CONCERNING ISSUANCE OF THE MANDATE

Pursuant to C.A.R. 41(b), the mandate of the Court of Appeals may issue forty-three
days after entry of the judgment. In worker’s compensation and unemployment
insurance cases, the mandate of the Court of Appeals may issue thirty-one days after
entry of the judgment. Pursuant to C.A.R. 3.4(m), the mandate of the Court of Appeals
may issue twenty-nine days after the entry of the judgment in appeals from
proceedings in dependency or neglect.
Filing of a Petition for Rehearing, within the time permitted by C.A.R. 40, will stay the
mandate until the court has ruled on the petition. Filing a Petition for Writ of Certiorari
with the Supreme Court, within the time permitted by C.A.R. 52(b), will also stay the
mandate until the Supreme Court has ruled on the Petition.

BY THE COURT:

Alan M. Loeb
Chief Judge

DATED: October 19, 2017

Notice to self-represented parties: The Colorado Bar Association
provides free volunteer attorneys in a small number of appellate cases. If
you are representing yourself and meet the CBA low income
qualifications, you may apply to the CBA to see if your case may be
chosen for a free lawyer. Self-represented parties who are interested
should visit the Appellate Pro Bono Program page at
http://www.cba.cobar.org/repository/Access%20to%20Justice/AppelatePr
oBono/CBAAppProBonoProg_PublicInfoApp.pdf

